OFFICE OF INSPECTOR GENERAL

AUDIT OF USAID/VIETNAM’S
SUPPORT FOR TRADE
ACCELERATION PLUS
PROJECT

AUDIT REPORT NO. 5-440-13-004-P
JANUARY 22, 2013




MANILA, PHILIPPINES
Office of Inspector General


January 22, 2013

MEMORANDUM

TO:                  USAID/Vietnam Mission Director, Joakim Parker

FROM:                Regional Inspector General/Manila, William S. Murphy /s/

SUBJECT:             Audit of USAID/Vietnam’s Support for Trade Acceleration Plus Project
                     (Report No. 5-440-13-004-P)

This memorandum transmits our final report on the subject audit. In finalizing the report, we
considered your comments on the draft version and have included them in their entirety in
Appendix II of this report.

This report contains five recommendations to assist the mission in improving the efficiency and
effectiveness of its project. On the basis of information provided by the mission in response to
the draft report, we determined that final action has been taken on Recommendations 2 and 4.
We acknowledge that management decisions were reached on Recommendations 1, 3, and 5.
Please provide the Audit Performance and Compliance Division of USAID’s Office of the Chief
Financial Officer with evidence of final action to close the open recommendations.

I want to thank you and your staff for the cooperation and courtesies extended to us during this
audit.




U.S. Agency for International Development
PNB Financial Center, 8th Floor
Roxas Blvd. 1308 Pasay City
Metro Manila, Philippines
http://oig.usaid.gov
CONTENTS
Summary of Results ................................................................................................................. 1

Audit Findings ........................................................................................................................... 3

     Mission Did Not Monitor Performance Adequately ................................................................ 3

     Mission and Contractor Did Not Track Cash and In-kind Contributions ............. ………….….6

Other Matters............................................................................................................................. 8

Evaluation of Management Comments.................................................................................... 9

Appendix I—Scope and Methodology ................................................................................... 10

Appendix II—Management Comments .................................................................................. 12

Appendix III—STAR Plus Indicators ...................................................................................... 15




Abbreviations

The following abbreviations appear in this report:

BTA             Bilateral Trade Agreement
FAR             Federal Acquisition Regulation
USG             United States Government
IQC             indefinite quantity contract
SEGIR           Support for Economic Growth and Institutional Reform
STAR            Support for Trade Acceleration
WTO             World Trade Organization
SUMMARY OF RESULTS
For the past decade, Vietnam has instituted a large number of economic, legal, and trade
reforms. In 2001 the government signed the U.S.–Vietnam Bilateral Trade Agreement (BTA),
and in 2007 Vietnam became a member of the World Trade Organization (WTO). Vietnam is
currently in the negotiation process of signing the Trans-Pacific Partnership, a regional trade
agreement between the United States, Vietnam, and nine other countries promoting economic
growth.

To help the Vietnamese Government institute the changes necessary to comply with the trade
agreements, USAID began the Support for Trade Acceleration (STAR) Project in 2001 and then
continued in 2006 with STAR II, which ended in 2010. Continuing the work performed under
these projects, USAID/Vietnam awarded an $11.7 million time-and-material task order contract
to DAI/Nathan Group to implement STAR Plus from October 1, 2010, through September 30,
2013. As of May 31, 2012, the mission had obligated $8.2 million and disbursed $6.4 million
under the project.

The goal of STAR Plus is to support the Vietnamese Government’s efforts to implement trade
and investment reforms, including changes in economic governance and macroeconomic areas,
to ensure an environment attractive for investment, trade, and private sector growth. To
achieve this goal, the project has seven major objectives.

1. Identify and select initiatives that support the Vietnamese Government’s efforts to comply
   with trade and investment agreements as they relate to the United States, particularly the
   BTA and the WTO agreement.

2. Support the government’s efforts to develop Vietnam’s private sector and continue its
   implementation of global trade rules to facilitate integration into the global economy.

3. Undertake specific capacity-building or technical assistance work to support legal and
   regulatory change.

4. Help the government develop new laws, regulations, and procedures pertaining to trade and
   the development of a market-oriented economy and a legal structure that encourages and
   supports private sector growth.

5. Train and build capacity among Vietnamese ministry staff, judiciary, and regulatory agencies
   to improve implementation of existing laws and strengthen the legal framework.

6. Provide technical assistance to support the establishment and operation of trade-related
   obligations consistent with international standards of economic governance (intellectual
   property rights, transparency, accountability, fairness, etc.)

7. Train employees in Vietnamese ministries and agencies to understand and implement
   international trade and investment obligations through the use and enforcement of existing
   laws.

STAR Plus works with 24 different Vietnamese government and institutional counterparts on
various activities to achieve these objectives. Counterparts include the Ministry of Justice’s


                                                                                             1
Department of International Law, the State Bank of Vietnam (the country’s central bank), the
Ministry of Industry’s Department of Multilateral Trade, and the Ministry of Finance’s Customs
Department. STAR Plus also works closely with relevant U.S. Government offices responsible
for international trade, such as the Department of Agriculture and the embassy in Hanoi.

Because demand for assistance from Vietnamese agencies far exceeds the project’s financial
resources, the government established a steering committee chaired by the Ministry of Justice
to review, approve, and prioritize the requests. Specific activities the project has conducted
include capacity-building workshops, research reports, and study tours.

The objective of this audit was to determine whether the project was achieving its main goal of
supporting the Government of Vietnam’s efforts to implement trade and investment reforms,
including changes in economic governance and macroeconomic areas, to ensure an
environment attractive for investment, trade, and private sector growth. The audit determined
that while the project has made some progress, it was difficult to determine the extent of any
progress because of performance monitoring problems.

   Performance monitoring was deficient (page 3). The mission did not customize enough
   indicators to track results, targets were set too low, and the reported results from
   DAI/Nathan Associates were not reliable. At least one invoice appeared to be paid for
   unsupported costs.

   Neither the mission nor DAI/Nathan Associates tracked contributions from the Vietnamese
   Government or other organizations (page 6). The contractor did not attempt to determine
   the value of the contributions or understand what activities they funded.

Auditors also commented upon the use of a time-and-material contract, which is considered the
least desirable contract type (page 8).

The report recommends that USAID/Vietnam:

1. Establish custom indicators that would capture critical activities adequately and allow the
   mission to track the project’s progress (page 4).

2. Work with the contractor to review and revise its performance targets (page 5).

3. Perform a data quality assessment identifying the contractor’s source of reported results,
   analysis of calculations, and completeness of data (page 5).

4. Through the contracting officer, determine the allowability and recover, as appropriate,
   $58,524 in unsupported costs pertaining to the total approved days that a short-term
   technical adviser worked (page 6).

5. Require the contractor to quantify, track, and report on all forms of cash and in-kind
   contributions contributed by counterparts and other organizations toward STAR Plus
   activities (page 7).

Detailed findings follow. The audit scope and methodology are described in Appendix I. Our
evaluation of management comments is included on page 9, and the full text of management
comments appears in Appendix II.


                                                                                             2
AUDIT FINDINGS
Mission Did Not Monitor Performance
Adequately
To be certain that a project meets its overall objectives and delivers planned outputs, mission
officials must use performance indicators to observe progress and compare actual results with
expected results. Selecting appropriate, useful indicators, establishing ambitious targets, and
ensuring reliable indicator data are crucial steps in assessing whether a project is making
progress toward its goal.1

The audit found that mission’s monitoring of the project through performance indicators was
weak. As described separately below, most of the indicators mission officials used were
inadequate, targets were set too low, reported results were not reliable, and one invoice
appeared to be paid for unsupported costs.

Indicators Were Not Adequate. Setting appropriate, useful indicators is one of the crucial
steps in assessing project progress. To achieve its overall goal, STAR Plus categorized results
within five main activity areas: rule of law, good governance, trade and investment, the financial
sector, and macroeconomic foundation. Mission officials established six indicators to monitor
progress in these areas (Appendix III). However, only one indicator, Number of initiatives that
enhance good governance, was tailored specifically for STAR Plus. The remaining five were
standard global indicators that missions report to USAID/Washington annually to track progress
in development worldwide.

The lack of custom indicators covering significant project activity makes it difficult for mission
officials to track specific STAR Plus progress. For example, the most significant activity
conducted in each of the five areas was organizing and funding capacity-building workshops for
Vietnamese officials and other counterparts. Since the project’s inception through July 2012, it
supported 147 workshops on issues covering intellectual property rights, trade commitment,
macroeconomic management, investment disputes, and government procurement. However,
only one indicator, Number of judges or judicial personnel trained, actually tracked data about
the people who participated in the workshops, and most of them were not judges or judicial
personnel.

Other prominent project activities include (1) an analysis comparing government legislation with
that required under different trade agreements, (2) work with the State Bank of Vietnam on
organizing and simplifying its existing regulations, and (3) two study tours to the United States
for high-ranking Vietnamese officials. The current set of standard indicators under STAR Plus
does not capture or measure these important activities, nor do they lend themselves to any kind
of evaluation.

In addition to not capturing important project activities, indicators 3, 4, and 6 (in Appendix III)

1
 Automated Directives System (ADS) 203.3.4, “Performance Indicators for PMPs and projects,” dated
February 10, 2012.

                                                                                                    3
only capture the output of a few people. These indicators measure the number of days that
short-term technical advisers contributed technical assistance on monetary policy, fiscal policy,
and financial sector-enabling environment. However, reported results came from only 4 of the
43 technical advisers.      The accomplishments of the other 39 were not recognized.
Furthermore, the output of just one technical adviser constituted the majority of the results
reported under the three indicators. Thus, the current set of indicators are not capturing the
activities of the majority of technical advisors working and contributing toward STAR Plus
objectives.

A mission official said because STAR Plus activities are demand-driven, it would be difficult to
monitor and evaluate progress from year to year due to the changing demands of project
counterparts. The official also said that capturing the results of standard global indicators for
USAID/Washington was a more important priority than custom indicator results.

Categorizing all STAR Plus activities as demand-driven by Vietnamese counterparts is not
entirely accurate because DAI/Nathan Group and USAID also have considerable influence in
the activities that the project undertakes. Moreover, the claim that the project is demand-driven
does not preclude the use of custom indicators for tracking selected activities, like workshops,
which may focus on different topic areas from year to year, but are still expected to be carried
out throughout the project’s performance period.

While standard indicators give USAID/Washington officials information on general development
trends, they are not necessarily useful as an effective tool for monitoring specific project
activities. By not developing and utilizing custom indicators, mission officials will have trouble
tracking progress toward planned results, making project decisions, and verifying that overall
project objectives are being met. In addition, as discussed in “Other Matters,” due to the type of
task order issued for this project, it is even more critical that mission officials monitor and
evaluate contractor performance. We therefore make the following recommendation.

  Recommendation 1.          We recommend that USAID/Vietnam review the project’s
  indicators and establish appropriate custom indicators that would capture project
  activities adequately and allow the mission to track progress.

Performance Targets Were Too Low. Performance targets should be ambitious yet
realistically achievable within the time frame and with available resources. Targets set too low
are not useful to management or for reporting purposes.

As of June 8, 2012, STAR Plus reported to have greatly exceeded its 2012 fiscal year targets
for five of its six performance indicators. One indicator exceeded its target by more than
180 percent, while another three exceeded their targets by more than 130 percent. With almost
4 months (or 33 percent) left in the current reporting period, it would appear that these targets
have been set too low. For fiscal year 2013, the project kept targets at the same level as fiscal
year 2012.

Mission officials said it was difficult to establish effective targets because of shifting priorities;
counterparts might request workshops or activities relating to the financial sector 1 year and
then shift to rule of law or trade issues the next year. The officials also said they did not
increase the 2013 targets because funding levels would remain the same, and therefore they
expected the contractor to expend the same level of effort.



                                                                                                    4
However, because targets were set too low for 2012, they are not useful to mission officials. At
the very least, targets should have been increased to encourage improved results. We
therefore make the following recommendation.

   Recommendation 2. We recommend that USAID/Vietnam work with the contractor to
   review and revise the project’s performance indicator targets for the remainder of the
   project.

Reported Results Were Not Reliable. Another crucial step in assessing project progress is
ensuring reliable indicator data. Three indicators tracked the number of days of technical
assistance provided to counterparts in the areas of monetary and fiscal policy, and financial
sector enabling environment. However, the reported results were based on the work of only
4 of the 43 approved technical advisers.

DAI/Nathan Group officials said the results came from calculating the number of days billed to
USAID for each of these four advisers. However, the audit found discrepancies between billed
days and days included in reported results for two advisers. In the latest results reported to the
mission, for fiscal year 2012 from October 1, 2011, through May 31, 2012, one adviser had
33 billed days, yet only 16 were included in reported indicator results. Another adviser billed
141 days to USAID, but only 121 were included in the results.

The audit team could not verify reported results under the indicator tracking Number of training
days provided to executive branch personnel. The contractor supported them by providing a
spreadsheet that subjectively included some workshops and excluded others to arrive at the
reported figure of 43 days. DAI/Nathan Group officials could not explain why some workshops
were included and others were excluded. So the team could not verify the numbers objectively.

Finally, for the indicator tracking the number of judges or judicial personnel trained, the audit
found support for 118 participants, not the 86 reported by the contractor. The contractor stated
a different time frame was used to calculate the reported results.

The mission was unable to detect these reporting discrepancies because of inadequate
monitoring procedures. Officials asked for indicator results only for the mission’s annual
performance plan report and the Office of Economic Growth’s portfolio review. In addition,
mission officials said they relied on the contractor to complete the data quality assessment
analysis of its own database, which proved inadequate in discovering discrepancies.

Without accurate data, mission officials cannot monitor and evaluate a project’s progress
adequately or make informed programming decisions. We therefore make the following
recommendation.

  Recommendation 3. We recommend that USAID/Vietnam perform a data quality
  assessment identifying the contractor’s source of reported results, analysis of
  calculations, and completeness of data, and document the results.

Project Paid Unsupported Costs. As noted in the task order for the project, the mission must
approve all short-term technical advisers STAR Plus uses, along with the maximum number of
days they will work.

One technical adviser who was approved to work up to 180 days actually worked for 214 days


                                                                                                5
(cumulative through June 2012). At a billing rate of $1,721.28 per day, this amounts to $58,524
that the Agency paid that appeared not to be an approved cost. We believe the cause to be
weak mission monitoring, as the mission was unaware of this issue. We therefore make the
following recommendation.

    Recommendation 4. We recommend USAID/Vietnam determine the allowability of
    $58,524 in unsupported questioned costs pertaining to the total approved days of the
    short-term technical adviser and recover from DAI/Nathan Group any amounts
    determined to be unallowable.

Mission and Contractor Did Not Track
Cash and In-kind Contributions
To maximize assistance impact, USAID strives to use the resources of other organizations,
including the host-country government, private sector, and other U.S. Government agencies.2
The STAR Plus contract reiterated this requirement, stating that DAI/Nathan Group must seek
to leverage contract resources to further the project’s goal and objectives. Furthermore, the
approved 2012 project work plan states that counterparts would be asked to contribute to
activity costs, and the Vietnamese Government pledged to contribute $883,000 through cash or
in-kind support.

While the audit found the project demonstrated the ability to use such resources, neither
DAI/Nathan Group nor the mission made any effort to quantify or record contributions. For
example, the Vietnamese Government provided cash and in-kind contributions for capacity-
building workshops. Yet the contractor did not attempt to quantify the monetary value of
contributions or understand what specific activity areas they funded.

In two other examples, the program was able to obtain free or discounted legal assistance. The
law firm of Baker & McKenzie provided legal services to project counterparts and to Vietnamese
Government officials. The firm is subcontracted under STAR Plus for a fixed fee not to exceed
$11,000 per month. To date, Baker & McKenzie has billed the project slightly less than
$180,000, but it estimated that the additional staff hours contributed, when calculated at market
rates, could have been $372,000. STAR Plus was also able to engage local legal interns to
work on various project activity objectives, at no cost.

STAR Plus also utilized government experts. An attorney for the U.S. Department of
Commerce who was in Ho Chi Minh City for trade meetings was asked to extend her time in
Vietnam and lead a workshop on government procurement for officials in Hanoi. Therefore, the
project saved the cost of hiring an expert, which DAI/Nathan estimated was worth $1,200 per
day,3 and travel expenses.

Mission officials said they never thought of asking the contractor to quantify and track
contributions. DAI/Nathan Group officials said quantifying such resources is difficult, and it did
not want to be held accountable by mission officials or others for accuracy.




2
  ADS 201.3.3.3(b)(4), “Results Framework: Focus and Selectivity – Division of Labor.”
3
  DAI/Nathan Group based this figure on the rate authorized for an adviser under its time-and-material
task order.

                                                                                                         6
However, as part of the audit, we were able to quantify certain contributions, such as those
described above, and we believe the project could perform a similar exercise.

Information about contributions gives mission officials an important tool in determining how to
focus limited USAID resources to achieve the greatest impact. This is particularly important
because the mission recently decided to decrease STAR Plus funding by $1.4 million due to
budget cuts. Contributions also demonstrate that participants approve of the project and
ultimately will contribute toward making it sustainable. We therefore make the following
recommendation.

   Recommendation 5. We recommend that USAID/Vietnam require the contractor to
   quantify, track, and report in writing on all forms of cash and in-kind contributions made
   by counterparts and other organizations toward STAR Plus project activities.




                                                                                                7
OTHER MATTERS
USAID funds projects through various mechanisms, including contracts. Contract types include
firm fixed-price, cost reimbursement, or time-and-material. A time-and-material contract is
described as a hybrid between firm fixed-price and cost reimbursement contracts, allowing the
contractor to charge direct labor hours at a specified fixed hourly rate, which includes wages,
overhead, general and administrative expenses, and profit. The contractor bills materials for
their actual costs.

Time-and-material contacts are considered the least desirable because they do not give the
contractor any incentive to control costs through labor efficiency.4 They therefore present the
highest risk to the government and lowest risk to the contractor. Because of this risk, the
Federal Acquisition Regulation (FAR)5 requires government agencies to perform a
determination and findings assessment whenever time-and-material contracts are used,
supporting the basis that no other type is suitable.

Despite this risk, USAID/Washington issued a $3 billion indefinite quantity contract (IQC) called
Support for Economic Growth and Institutional Reform (SEGIR) II in March 2007. Pursuant to
the IQC terms, all task orders awarded must be time-and-material contracts, and six large, for-
profit firms and three small firms are authorized to bid on them. (STAR Plus is an example of a
time-and-material task order issued under the SEGIR II IQC.) As of September 1, 2012,
approximately $1.027 billion in task orders were issued out of the $3 billion IQC.

The audit requested a copy of the determination and findings assessment justifying SEGIR’s
use of time-and-material contracts, but the Agency could not locate the document.

While every type of contract mechanism has pros and cons to, when SEGIR was issued in 2007
the U.S. Government’s fiscal situation and the nation’s economic climate were much different
than today. Furthermore, budget cuts have had a direct impact on USAID/Vietnam over the
past several years. Since 2009, the mission’s Federal Managers’ Financial Integrity Act
certification has cited the “delay and unpredictability in the arrival . . . of funds” as a significant
deficiency affecting activities. This year the Economic Growth Office cut $5.4 million in portfolio
activities, which included $1.4 million from STAR Plus. Because of the change in the U.S.
Government’s fiscal situation and the disadvantages of time-and-material contracts, we suggest
that USAID/Washington and other concerned parties consider reviewing SEGIR II.




4
    FAR 16.601(c)(1).
5
    FAR 12.207(b)(ii)(A) and 12.207(b)(2).

                                                                                                     8
EVALUATION OF MANAGEMENT
COMMENTS
The Office of Inspector General has reviewed the mission’s response to the draft report. Based
on information provided in that response, we determined that final action has been taken on
Recommendations 2 and 4. We acknowledge that management decisions were reached on
recommendations 1, 3, and 5. Our evaluation of comments is below.

In response to the mission’s general comment, we note that we reviewed the performance
evaluation of the STAR I and II projects. The evaluation was submitted to USAID’s Economic
Growth and Trade office by a consultant, but lists four Agency employees as authors—two of
whom work for that office. Therefore, while the evaluation provided us background information
and historical context about the previous STAR projects, we did not view it as being impartial.
In addition, we note that all Vietnamese Government officials we met with said they greatly
appreciated STAR Plus workshops and other assistance provided by USAID.

In response to Recommendation 1, the mission will work with the STAR Plus contractor to
document the main intended outcomes of the project when it ends and identify the most
meaningful measures of those outcomes that are feasible and available to use to assess the
project’s overall performance. If possible, these measures will be expressed as custom
indicators in the FY13 reporting for the project. We acknowledge a management decision has
been reached and final action will be taken when the aforementioned actions are completed by
December 31, 2013.

In response to Recommendation 2, the mission plans to maintain the targets set in FY 2012 for
FY 2013 due to a $1.5 million budget reduction and only nine months of planned implementation
in FY 2013 (project activities will cease at the end of June 2013 to begin closeout). As a result
of these factors, we acknowledge that a management decision has been reached and consider
that final action has been taken on this recommendation.

In response to Recommendation 3, the mission will ask the contractor to implement a system
that clearly links all events and short-term technical assistance to the proper indicators. We
acknowledge that a management decision has been reached and final action will be taken once
the mission verifies that the existing data quality assessments are updated to reflect the above
actions by December 31, 2013.

In response to Recommendation 4, the mission provided us with documentation to prove that
the expense was allowable.    We consider that final action has been taken on this
recommendation.

In response to Recommendation 5, the mission repeatedly referred to cost-sharing, which was
not discussed in the finding. However, the mission is taking an appropriate action in response
to the recommendation by requiring the contractor to make an assessment of counterpart
contributions leveraged by the project based on the information they have gathered, and
present a summary of these contributions as a section in the project’s final report for purposes
of strategy and future project design. Therefore, we acknowledge that a management decision
has been reached and final action will be taken once the above actions are completed by
December 31, 2013.


                                                                                               9
                                                                                        Appendix I



SCOPE AND METHODOLOGY
Scope
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
in accordance with our audit objective. We believe that the evidence obtained provides that
reasonable basis.

The purpose of this audit was to determine whether USAID/Vietnam’s Support for Trade
Acceleration Plus project was achieving its main goal of supporting the Government of
Vietnam’s efforts to implement trade and investment reforms to ensure an environment
attractive for investment, trade, and private sector growth.

To implement the project, USAID signed an $11.7 million, 3-year task order with DAI/Nathan
Group covering the period from October 1, 2010, through September 30, 2013. As of May 31,
2012, the mission had obligated $8.2 million and disbursed $6.4 million under the project.

The audit covered project activities over roughly 18 months from October 1, 2010, through
March 31, 2012 (the latest available formal reporting period). The team also covered ongoing
project activities through June 2012 to the extent that data were available. Because this was a
performance audit looking at project implementation rather than specific financial transactions,
the audit team did not focus on auditing the $6.4 million in disbursements.

The audit team met with officials from 20 departments in 14 ministries and institutions involved
in the project to confirm reported performance and successes. The audit also made an effort to
validate reported results for five of the six performance indicators through analytical procedures,
though this was limited in effectiveness because of the inability of the indicators to capture and
represent the activities or components.

As part of the audit, we assessed the significant internal controls used by USAID/Vietnam to
monitor project activities. The assessment determined whether the mission (1) had an approved
monitoring and evaluation plan in place, (2) required and approved an implementation plan, and
(3) conducted and documented site visits to evaluate progress and monitor quality. We also
examined the mission’s fiscal years 2010 and 2011 annual self-assessment of management
controls, which the mission is required to perform to comply with the Federal Managers’
Financial Integrity Act of 1982, to determine whether the assessment cited any relevant
weaknesses.

Audit fieldwork was performed at the USAID/Vietnam mission as well as at DAI/Nathan Group’s
office in Hanoi from August 6 to 29, 2012. During that period, the audit team reviewed
documents pertaining to project progress and related expenditures. The audit team also
interviewed officials from various Vietnamese agencies, the U.S. Department of State
Agricultural Affairs Section, two academic institutions in Hanoi, and employees for the contractor
and two subcontractors. During these meetings, the auditors obtained inputs on project
activities, successes, challenges, and the counterpart contributions of these agencies.



                                                                                                10
                                                                                      Appendix I



Methodology
To determine whether the project was achieving its goal, the audit team initially interviewed key
staff in USAID/Vietnam’s Economic Growth Office and at DAI/Nathan Group to gain an
understanding of STAR Plus, the reporting procedures, and controls in place for monitoring
progress and expenditures. Additional work to answer the audit objective focused on
interviewing officials from a number of Vietnamese agencies. During the interviews, the audit
team solicited feedback on the project’s activities and its relevance to the agencies’ work.
Analytical procedures were also conducted in conjunction with a review of documents in an
effort to validate data reported for five of the six active performance indicators as well as the
expenditures paid for by USAID. This included reviewing documentation pertaining to a
randomly selected percentage of workshops supported by the project, reviewing documentation
of a judgmentally selected sample of approved short-term technical advisers, and verifying
information against vouchers submitted to USAID. Because selection was based on a
judgmental sample, results and overall conclusions were limited to the items tested and could
not be projected to the entire audit universe.

In validating the results data supporting the project’s performance indicators, the auditors
performed testing of the reported figures for five of the six indicators as of May 31, 2012. This
involved comparing a judgmental sample of the results data with records at the contractor’s
office to verify that the recorded results data were accurate and reliable and to determine
whether the data met data quality standards. The audit team established a materiality threshold
of 85 percent. For example, if at least 85 percent of tested results data reported under a
specific performance indicator were found to be supported adequately, the auditors concluded
that the results were reasonably accurate.




                                                                                              11
                                                                                    Appendix II



MANAGEMENT COMMENTS



                                                                             December 5, 2012
MEMORANDUM


TO:                   William S. Murphy, Regional Inspector General/Manila,
FROM:                 Joakim Parker, Mission Director /s/
SUBJECT:              Management Comments Audit of USAID/Support for Trade Acceleration
                      Plus (STAR Plus)

REF:                  Draft report No. 5-440-13-XXX-P dated November 5, 2012




Management General Comment:

The STAR I, II and Plus programs implemented over the last 12 years are widely viewed as
constituting a cornerstone of U.S.-Vietnam economic cooperation and having broad diplomatic
and development impact. The performance evaluation conducted of the STAR I and II Program
in 2010 strongly supported this view. The draft IG report’s focus for STAR Plus on performance
indicators for purposes of a performance audit is appropriate, but its omission of findings from
the IG team’s extensive meetings with Government of Vietnam (GVN) counterparts and U.S.
Embassy is striking. We request that a summary of their views be incorporated into the final
report.

The findings of this audit will be helpful in the Mission’s current development of a new Country
Development Cooperation Strategy (CDCS) and development of new programs.

In response to the referenced draft audit report, please find below Mission management’s
comments on the five recommendations included therein:

Recommendation 1: We recommend that USAID/Vietnam review the project’s indicators
and establish appropriate custom indicators that would capture project activities adequately
and allow the mission to track progress.



                                                                                               12
                                                                                            Appendix II


Management Comment: Mission management disagrees with the recommendation. The
Mission agrees with the general finding that the STAR Plus contract’s reliance on six output-
level indicators (including five F standard indicators and one custom indicator) for results
reporting does not meet the Agency’s new program cycle policies that set a new standard of
outcome-level impact custom indicators as the basis for performance monitoring (ADS 200
Series). However, the STAR Plus contract was awarded on September 30, 2010, prior to any
of the new performance measurement guidance being established as policy (i.e. PPL Project
Design Guidance dated December 2011 and the new Evaluation Policy dated January 2011).
Therefore, the Mission does not agree that it is appropriate to apply these new policies
retroactively to a contract that was awarded over one year prior to the guidance being
released (at which time the contract was fully compliant with the ADS policies on
performance monitoring still in effect from the F process). Furthermore, given that the
program will cease activity implementation in seven months, it is neither programmatically
feasible nor cost-effective to renegotiate the program’s performance measures for such a
short period of time. Mission management fully agrees that any new programs developed
under the Mission’s new CDCS must be fully compliant with the new performance
monitoring guidance in the ADS. The Mission will work with the STAR Plus contractor to
document the main intended outcomes of the program at the time it ends and identify the
most meaningful measures of those outcomes that are feasible and available to use to
assesses the programs overall performance. If possible, these will be expressed as customs
indicators in the FY13 PPR reporting for the program.

Recommendation 2: We recommend that USAID/Vietnam work with the contractor to
review and revise the project’s performance indicator targets for the remainder of the
project.

Management Comment: Mission management disagrees with the recommendation. While
the contractor exceeded all of the targets for FY 2012, in many cases substantially, this fact
alone does not indicate that the targets were set too low. The program’s FY 2011 results
reported in both the 2011 Portfolio Review and the 2011 PPR indicated that the program
failed to meet its targets for nearly half of its indictors. This was due to the fact that in FY
2011 the program implementation was delayed for eight months due to a lack of project
approval from the Government. This is exactly the kind of unforeseen obstacle that we have
to militate against in setting targets. The demand driven nature of the program also makes it
quite difficult to anticipate the final level of result that will occur under a particular indicator,
making results both above and below the set target more likely than in programs with a more
fixed approach. The Mission plans to maintain the targets set in FY 2012 for FY 2013.
Considering a $1.5 million budget reduction and only nine months of planned
implementation in FY 2013 (program activities will cease at the end of June 2013 to begin
close out), this will actually represent a significant increase in performance expectations for
the program on a time and/or dollar basis.

Recommendation 3: We recommend USAID/Vietnam perform a data quality assessment
identifying the contractor’s source of reported results, analysis of calculations, and
completeness of data.



                                                                                                        13
                                                                                        Appendix II


Management Comment: Mission management agrees with the recommendation. The
mission will request that the contractor implement a system of clearly coding all events and
short-term technical assistance (STTA) so that the method in which they are to be attributed
to the indicators is clear from the outset and well documented. The contractor’s practice of
attributing these activities to the respective indicators based on their direct knowledge of the
events did not provide a fully auditable record, requiring a verbal explanation from the
contractor. Up-to-date data quality assessments (DQA) existed for all six performance
indicators, so the existing DQAs will be updated to reflect this change.

Recommendation 4: We recommend USAID/Vietnam determine the allowability and
recover, as appropriate, $58,524 in unsupported costs pertaining to the total approved days
of the short-term technical adviser.

Management Comment: The Contracting Officer has determined that the costs were allowable.
There are three approved STTA requests for Dr. Pham Do Chi, providing more than ample
authorization for the days used. The first approval was provided on March 3, 2011 for 90 days.
The second approval was provided on October 24, 2011 for an additional 90 days. The third
approval was provided on March 28, 2012 for an additional 90 days, bringing the total LOE to
270 days, not 180 days as mentioned by the audit report. (Approvals attached).

Recommendation 5: We recommend that USAID/Vietnam require the contractor to
quantify, track, and report on all forms of cash and in-kind contributions made by
counterparts and other organizations toward STAR Plus project activities.

Management Comment: Mission management disagrees with the recommendation. The STAR
Plus contract has no provision requiring cost-sharing. ADS 302 (USAID Direct Contracting)
makes no reference to any requirement for cost sharing under contracts. While the Mission views
the fact that the STAR Plus program has consistently made efforts to leverage USG resources in
a variety of ways as valuable and we actively encourage it, it is not required under the contract
terms that such contributions exist or to have it documented.
However, the Mission will require that the contractor make an assessment of counterpart
contributions leveraged by the program based on the information they have gathered and present
of a summary of these contributions as a section in the program's final report for purposes of
strategy and future project design.

Attachments:
    1. R2: FY 2011/FY 2012 STAR Plus Portfolio Review/PPR indicator results
    2. R4: Approved STTA levels documentation




                                                                                                   14
                                                                                              Appendix III


                                             STAR Plus Indicators

                                                                         FY     FY 2012    Percentage
    Indicator       Indicator                             Indicator
                                       Activity Area                    2012    Reported    of Target
       No.         Description                              Type
                                                                       Target   Results*    Achieved
        1       Number of Judges
                and Judicial
                Personnel Trained       Rule of Law       Standard       270      86          32


        2       Number of
                initiatives that          Good
                enhance good                               Custom         6       11          183
                                        Governance
                governance
        3       Number of days of
                United States
                Government(USG)
                supported
                technical              Macroeconomic                     50
                                                          Standard                 66.75      134
                assistance in           Foundation                      days
                monetary policy
                provided to
                counterparts or
                stakeholders
        4       Number of days of
                USG supported
                technical
                assistance in fiscal
                                       Macroeconomic                     30
                policy and fiscal                         Standard                40          133
                                        Foundation                      days
                administration
                provided to
                counterparts or
                stakeholders
        5       Number of training
                days provided to
                                          Trade and                      40
                executive branch                          Standard                43          108
                                         Investment                     days
                personnel with
                USG assistance
        6       Number of days of
                USG funded
                technical
                assistance in
                financial sector          Financial                      50
                                                          Standard                 66.5       133
                enabling                   Sector                       days
                environment
                provided to
                counterparts or
                stakeholders
*
    Represents reported results for the first 8 months of fiscal year 2012.




                                                                                                        15
U.S. Agency for International Development
       Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
            Tel: 202-712-1150
            Fax: 202-216-3047
           http://oig.usaid.gov
